March 12, 2009

JEFFREY C. WILLIAMSON
MANAGER, NETWORK DEVELOPMENT AND SUPPORT

SUBJECT: Audit Report – Business Rules for Modern Service Standards
         (Report Number EN-AR-09-002)

This report presents the results of our audit focusing on modern service standards
(Project Number 08XG034EN000). Our objective was to assess the business rules1
used to develop modern service standards for market-dominant mail products.2 The
U.S. Postal Service Office of Inspector General (OIG) initiated this audit, which is the
first in a series of service standard and service measurement reviews. See Appendix A
for additional information about this audit.

Conclusion

The U.S. Postal Service complied with the statutory requirements for developing
modern service standards for market-dominant mail products as established in the
Postal Accountability Enhancement Act of 2006 (Postal Act of 2006).3 The mailing
industry generally supported the proposed service standards. Further, in accordance
with the Postal Act of 2006, the Postal Service tested and took into account the actual
level of service provided under previously established service standards. However, we
noted several potential strategic and operational risks, including the Postal Service may
have difficulty in meeting the newly established standards, which use operational
capability rather than actual service performance.

Compliance with the Postal Act of 2006

Management complied with the statutory requirements for developing modern service
standards. Specifically, the Postal Service considered actual level of service, customer
satisfaction, the needs of customers, mail volume and revenue projections, projected
1
  Business rules are the implementing criteria that determine the number of days-to-delivery between each of the
approximately 851,000 origin-destination 3-digit ZIP Code pair combinations in the Postal Service network for each
market-dominant mail class.
2
  Market-dominant products include First-Class Mail®, Standard Mail, Periodicals, and Package Service.
3
  The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to consult with the Postal
Regulatory Commission (PRC) on the establishment of a set of service standards for market-dominant products.
Also, the Postal Service is to obtain approval from the PRC of its internal measurement systems for each market
dominant product.
Business Rules for Modern Service Standards                                                        EN-AR-09-002



growth in the number of addresses, current and projected cost of servicing customers,
changes in technology, demographics and population distribution, and other factors.
See Appendix B for our detailed analysis of this topic.

Potential Strategic and Operational Risks

Developing business rules for modern service standards presented several potential
strategic and operational risks. One of the key risks was the potential that service
performance might not meet operational capability. The Postal Act of 2006 required the
Postal Service to take into account the actual level of service customers received under
previously established service guidelines or service standards. Although the Postal
Service tested and took into account the actual level of service, they developed the new
service standards based on operational capability rather than actual service
performance. Specifically, the Postal Service conducted PLANET® Code4 testing of
market-dominant mail products; however, according to management, the test results
were not as high as expected. Management used the data to identify best practices in
the network in order to drive improvement in the plants.5 Accordingly, management
established service standards (see Appendix C for Service Standards) with the
expectation of improving performance, rather than lowering standards, for all market-
dominant products except package services. See Appendix B for our detailed analysis
of this topic and other strategic and operational risks.

Other Matters

Stakeholders identified additional concerns about service standards and performance
issues that were outside the scope of our review. We are reporting them to provide
additional insight into stakeholder viewpoints on these topics. The concerns include the
need for an overarching plan and timeline for service measurement, increased
transparency, concerns about the sampling process, and an enhanced quality control
and oversight process. We may review these issues in more depth in future audits.

Management’s Comments

Management agreed with our findings. Management’s comments, in their entirety, are
included in Appendix G.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the finding in the report.


4
  The PLANET Code is a 12-digit barcode used to track the path of the mailpiece. The Postal Service’s barcode
sorting equipment reads the barcode and makes mail processing information available (such as when and where the
mail was processed).
5
  We obtained actual performance results from PLANET Code seed testing for First-Class, Periodicals, and Standard
Mail. Computerized Online Notification For Inbound Reply Mail was used to test Package Services.




                                                        2
Business Rules for Modern Service Standards                                  EN-AR-09-002



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    Shibani S. Gambhir
    Katherine S. Banks




                                              3
Business Rules for Modern Service Standards                                                               EN-AR-09-002



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In 2003, the President’s Commission on the U.S. Postal Service recommended that the
PRC 6 review proposed service standard changes and provide an opinion of the
changes.

The Postal Act of 2006 required the Postal Service to establish modern service
standards for its market-dominant products and to consider eight factors in establishing
the service standards, including consultation with the PRC. A key element in complying
with the requirement was the development of business rules for establishing modern
service standards. The business rules define how the mail should move through the
network. The Postal Act of 2006 outlines four objectives:

     •    Enhance the value of postal services to both senders and recipients.

     •    Preserve regular and effective access to postal services in all communities,
          including those in rural areas or where post offices are not self-sustaining.

     •    Reasonably assure Postal Service customers delivery reliability, speed, and
          frequency consistent with reasonable rates and best business practices.

     •    Provide a system of objective external performance measurements for each
          market-dominant product as a basis for measuring Postal Service performance.

The Postal Service used a combination of outreach methods to meet the statutory
requirements. Those methods included consultations with the Mailers Technical
Advisory Committee (MTAC) and the PRC and use of Customer Satisfaction
Measurement (CSM)7 surveys.

In late February 2007, the Postal Service formed an MTAC workgroup to develop
recommendations for service standards and potential measurement systems by
mid-September 2007. The MTAC workgroup was subdivided into four subgroups:

    •    First-Class Mail
    •    Periodicals
    •    Standard Mail® (including Bound Printed Matter flats)

6
  The PRC an independent agency that has exercised regulatory oversight over the Postal Service since the Postal
Reorganization Act of 1970 created it. Initially, that oversight consisted primarily of conducting public, on-the-record
hearings concerning proposed rate, mail classification, or major service changes and recommending that the Postal
Service Governors make decisions for action.
7
  The CSM process provides an ongoing assessment of customer experience with Postal Service products and
services and is focused on overall customer satisfaction. CSM provides reliable and actionable information to
managers by identifying opportunities for improvement.




                                                            4
Business Rules for Modern Service Standards                                                        EN-AR-09-002



    •    Package Services (including Parcel Post®, Media Mail, Library Mail, Bound
         Printed Matter parcels, and Standard Mail parcels)

The subgroups worked independently to develop market-dominant product-specific
recommendations. The workgroup developed recommendations on modern service
standards and potential measurement systems and provided their recommendations to
the Postal Service in September 2007.

In March 2007, the Postal Service initiated a series of informational briefings with the
PRC and the MTAC workgroup to address service standard issues. Members of the
Postal Service Executive Committee met regularly with the PRC staff to discuss
preliminary work performed by the Postal Service in developing modern service
standards, measurement systems, methods for reporting data, and customer outreach.8

The Postal Service also conducts periodic CSM surveys to determine customer
expectations of service. For instance, in April and May 2007, the Postal Service
solicited feedback on expectations regarding service standards and delivery times from
residential and small business customers. The Postal Service mailed the survey to
approximately 25,000 residential customers and 11,000 business customers; the
response rates were 26 and 23 percent, respectively. The survey asked customers for
their opinions on overall Postal Service performance and their expectations regarding
delivery for:

     •   First-Class Mail and Parcel Post
     •   Periodicals (monthly and weekly magazines and national, out-of-town, and local
         newspapers delivered by mail)
     •   Advertising mail and flyers
     •   Library Rate Mail
     •   Media Mail
     •   Bound Printed Matter

Management stated that the survey results were not a deciding factor in creating the
modern service standards; however, they used the feedback to determine whether the
modern service standards aligned with customer expectations. Postal Service officials
stated they briefed the PRC on the CSM results on August 21, 2007.

In December 2007, the updated USPS Strategic Transformation Plan 2006-20109
stated that service improvement areas concentrate on two broad areas of market-
dominant products. These areas are the quality and consistency of service provided at
all customer contact points and the speed and reliability of end-to-end mail delivery
across all product lines.
8
  The Postal Service held meetings with PRC to discuss service standards on March 8, June 20, July 23, and
August 30, 2007.
9
  USPS Strategic Transformation Plan 2006-2010, updated December 2007.




                                                        5
Business Rules for Modern Service Standards                                EN-AR-09-002



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the business rules used to develop modern service
standards for market-dominant mail products. To accomplish the objective, we
interviewed Postal Service managers; conducted a review of MTAC, PRC, and Postal
Service informational briefings; and analyzed PLANET Code data from tests conducted
by the Postal Service. Also, we reviewed the Postal Act of 2006, which required the
Postal Service to consider eight factors in establishing the service standards. In
addition, we reviewed management’s explanation of business rules used to develop
modern service standards, outlined in a December 2007 issue of the Federal Register.

We obtained results from the following Postal Service resources: PLANET Code
seeding, CSM surveys, and service standards computer modeling. We did not test the
controls over these outreach resources. However, we checked the reasonableness of
results by confirming our analyses and results with Postal Service managers.

We conducted this performance audit from June 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on January 22, 2009, and included their comments
where appropriate.

SCOPE LIMITATION

The PRC requires the Postal Service to review service standards for both contiguous
and noncontiguous states and U.S. territories. Because of time constraints, we
reviewed the business rules only for the contiguous states.

Additionally, we accepted the PLANET Code testing results provided by management
without verifying the accuracy or completeness of the results.

PRIOR AUDIT COVERAGE

The OIG has not completed any prior audits on business rules used to develop modern
service standards for market-dominant mail products.




                                              6
Business Rules for Modern Service Standards                                  EN-AR-09-002



The Government Accountability Office (GAO) has not issued any reports on business
rules for modern service standards; however, the GAO issued a report titled, U.S.
Postal Service: Delivery Performance Standards, Measurement, and Reporting Need
Improvement (GAO-06-733, issued July 2006). The GAO found the Postal Service had
not updated delivery standards to reflect changes in how it prepares and delivers mail in
years. They recommended the Postal Service take action to modernize its delivery
standards; implement delivery performance measures for major types of mail by
providing clear commitment and more effective collaboration; and improve the
transparency of delivery performance standards, measures, and results.




                                              7
Business Rules for Modern Service Standards                                                      EN-AR-09-002



                              APPENDIX B: DETAILED ANALYSIS

Compliance with the Postal Act of 2006

We concluded the Postal Service complied with the statutory requirements for
developing modern service standards for market-dominant mail products as established
in the Postal Act of 2006. However, we noted several strategic and operational risks.

The Postal Act of 2006 required the Postal Service, in consultation with the PRC, to
establish modern service standards. The law directed the Postal Service to take eight
factors into account when establishing the new service standards. See Appendix D for
the statutory requirements established by Congress.

To meet the statutory requirements associated with customer satisfaction and needs,
the Postal Service used a combination of outreach methods. Those methods included
consultations with the MTAC workgroup and the PRC; other stakeholders provided a
number of concerns, comments, and suggestions related to developing the standards.

We noted that the Postal Service, when developing the standards, incorporated several
comments and suggestions offered by the PRC and stakeholders. For example, the
Postal Service included standards for noncontiguous states and territories and
committed to conducting annual internal reviews. Management also formed an MTAC
workgroup to address a number of issues that required additional collaboration with the
mailing industry, such as critical entry times, in-home delivery dates, and seasonality of
service and performance measurement.

In addition, we noted there were stakeholder concerns and comments that were not
acted on by the Postal Service for various economic or operational reasons, including
standards for caller service, forwarded mail, change-of-address mail, and “tail-of-the-
mail.” In response to concerns raised about “tail-of-the-mail,” the Postal Service stated:

        Under these new standards, the Postal Service expects that the number
        of pieces reaching destinations after the prescribed service standard will
        be reduced. However, there will always be a small number of pieces that
        are not delivered within their service standard. Rather than establish
        additional benchmarks for mail not meeting its standard [i.e., “tail-of-the-
        mail”], the Postal Service prefers that its service standards reflect one
        goal for all mail within a market-dominant product designation, and that
        the degree to which mail is late be measured and reported to the PRC.10

We also found the Postal Service used a systematic process for developing the modern
service standards. Specifically, the Postal Service began developing service standards
for market-dominant products by examining the existing standards applicable to the
10
  Federal Register, Postal Service, 39 CFR Parts 121 and 122, Modern Service Standards for Market-Dominant
Products, Final Rule, dated December 19, 2007.




                                                      8
Business Rules for Modern Service Standards                                   EN-AR-09-002



matrix of nearly 851,000 origin-destination 3-digit ZIP Code pairs in the Postal Service
network for each mail product. As it reviewed the survey data and other information
regarding customer preferences, the Postal Service:

    •   Performed computer modeling to determine how best to match its current mail
        processing and transportation network capabilities with customer expectations.

    •   Organized an internal cross-functional team to define and map standardized mail
        processing and transportation flows for all market-dominant mail products. The
        resulting flows were benchmarked against existing network capabilities by using
        internal mail processing and transportation data systems to ensure accuracy.

    •   Developed computer programs to calculate the resulting days-to-delivery for the
        approximately 851,000 3-digit ZIP Code origin-destination pairs, separately for
        each product (see Appendix E for Service Standards Mail Flow). Numerous
        versions of the model were run to test different business rules, and the
        alternative outputs were analyzed. As refined potential outcomes were
        developed, they became the subject of consultations with the PRC.

The creation of new business rules was a key step in the modernization of service
standards. The business rules define how the mail will move through the network, and
where appropriate, they also recognize the deferability of Standard Mail. The new
service standards maintain the policy of requiring the same service level for each mail
class, irrespective of mailpiece shape. Also, the modern service standards reflect some
of the logistical challenges associated with providing service to, from, and within the
states of Alaska and Hawaii, as well as the territories of Guam, Puerto Rico, and the
U.S. Virgin Islands.

Strategic and Operational Risks

Management said they are committed to establishing realistic service standards that
customers can count on to be consistently achieved. During our assessment of the
modern service standard business rules, we noted two key risks: service performance
potentially not meeting operational capability, and the possibility of ineffective
stakeholder relationships.

The Postal Act of 2006 required that when developing modern service standards, the
Postal Service must take into account the actual level of service customers received
under previously established service guidelines or service standards. We noted that the
Postal Service took the actual level of service into account, but based the new
standards on operational capability rather than the actual level of performance.

Specifically, the Postal Service performed random PLANET Code seeding tests in mail
processing facilities from March 26 through May 11, 2007, to obtain accurate and
realistic performance data for segments of the network’s market-dominant mail. As an



                                              9
Business Rules for Modern Service Standards                                               EN-AR-09-002



example, Table 1 shows the PLANET Code testing results for First-Class Mail
(contiguous U.S. only).11




                                                       Redacted




*Note: CONUS - Continental U.S., the 48 contiguous states
       D-T-D - average days to deliver
       DBCS - Delivery BarCode Sorter (sorts letter mail based on the barcode into delivery sequence).

Management stated the test was not intended to be statistically valid. The purposes of
the test were to understand cycle times for various products for which management did
not have performance data and to identify best practices in the network. When
management received the results of the seeding tests, they showed longer-than-
expected cycle times for some mail classes. Management used the data to create
standardized operating procedures to improve plant performance. Management felt the
business rules published on December 19, 2007, were reasonable and credible. A
review of fiscal year 2009 service performance data will establish whether realistic
service standards have been developed.

An additional strategic risk is stakeholder relationships. Congress, PRC, MTAC and
other stakeholders (such as major mailers and the public) may have concerns if service
standard day ranges are not aligned with stakeholders’ expectations. Our review
showed that management addressed the risk of ineffective stakeholder relationships by
conducting CSM surveys to determine whether the new service standards were aligned
with customer expectations.




11
     Standard Mail and Periodicals were not routinely tested.




                                                            10
Business Rules for Modern Service Standards                                                          EN-AR-09-002



                        APPENDIX C: SERVICE STANDARDS CHANGE

The Postal Service established its final regulations on market-dominant products. The
proposed modern service standards reflect consideration of relevant statutory
requirements.

Established service standards include both end-to-end and destination entry
standards.12

The following table summarizes the service standard day ranges resulting from the
application of business rules to market-dominant mail products.

                Table 2: Service Standards for Contiguous U.S.
                                                            Entry at
    Mail Class        Previous          End-to-End        Destination
                                                         Delivery Unit13
First-Class               1-3                1-3               N/A
Periodicals               1-7                1-9                1
Package Service           2-9                2-8                1
Standard Mail            3-10               3-10                2




12
   End-to-end service standard day ranges measure service from origin to destination for mail originating and
destinating within the 48 contiguous states and the District of Columbia. The “destination entry standard (days)”
refers to mail (Periodicals, Standard Mail, and package services) entered at or near a destination Postal Service
facility.
13
   Mail dropped at a destination delivery unit by mailers allows the Postal Service to avoid both transportation and
processing costs. The savings from these avoided costs are passed along as discounts to mailers and consolidators.




                                                        11
Business Rules for Modern Service Standards                                   EN-AR-09-002



                      APPENDIX D: STATUTORY REQUIREMENTS

The Postal Act of 2006, Subsection 3691-C, directs the Postal Service, in consultation
with the PRC, to take the following eight factors into account when establishing modern
service standards.

   (1) The actual level of service that customers receive under any service guidelines
       the Postal Service previously established.

   (2) The degree of customer satisfaction with Postal Service performance in the
       acceptance, processing, and delivery of mail.

   (3) The needs of Postal Service customers, including those with physical
       impairments.

   (4) Mail volume and revenues projected for future years.

   (5) The projected growth in the number of addresses the Postal Service will serve in
       future years.

   (6) The current and projected cost of serving Postal Service customers.

   (7) The effect of changes in technology, demographics, and population distribution
       on the efficient and reliable operation of the postal delivery system.

   (8) The policies of Title 39, U.S.C., as amended by the Postal Act of 2006, and such
       other factors as the Postal Service determines appropriate.

Our review showed that management considered and incorporated these statutory
requirements when developing the modern service standards. The Actual Level of
Service was used to identify best practices in the network and operational capability
was used to develop the new modern service standards.




                                              12
Business Rules for Modern Service Standards                                               NO-AR-09-006




                                     APPENDIX E: SERVICE STANDARDS MAIL FLOW


                                                  FIRST-CLASS MAIL

                               [Note: Acronyms are defined at the end of the appendix.]




                                                          13
Business Rules for Modern Service Standards                                        NO-AR-09-006



                             APPENDIX E: SERVICE STANDARDS MAIL FLOW (CONTINUED)


                                              PERIODICALS MAIL


                                  Service Standards and Targets

             Periodicals Mail Flow
                     Origin Entry




                       Destination Entry




                                                   14
Business Rules for Modern Service Standards                                        NO-AR-09-006



                             APPENDIX E: SERVICE STANDARDS MAIL FLOW (CONTINUED)

                                              STANDARD MAIL


                                 Service Standards and Targets

            Standard Mail Flow
                     Origin Entry




                     Destination Entry




                                                   15
Business Rules for Modern Service Standards                                    NO-AR-09-006



                         APPENDIX E: SERVICE STANDARDS MAIL FLOW (CONTINUED)
                                              PACKAGE SERVICES


                                Service Standards and Targets

          Package Services Flow
                   Origin Entry




                   Destination Entry




                                                     16
Business Rules for Modern Service Standards                                       NO-AR-09-006



                               APPENDIX F: ORIGIN/DESTINATION FACILITY ACRONYMS



AADC - Automated Area Distribution Center
ADC - Area Distribution Center
BMC - Bulk Mail Center
BMC/ASF - Bulk Mail Center/Auxiliary Service Facility
CET - Critical Entry Time
DADC - Destination Area Distribution Center
DBMC/ASF - Destination Bulk Mail Center/Auxiliary Service Facility
DDU - Destination Delivery Unit
DSCF - Destination Sectional Center Facility
OBMC - Origin Bulk Mail Center
O/N - Overnight
OP&DC/F - Origin Processing and Distribution Center/Facility
P&DC - Processing and Distribution Center
SCF - Sectional Center Facility




                                                         17
Business Rules for Modern Service Standards            NO-AR-09-006



                     APPENDIX G: MANAGEMENT COMMENTS




                                              18
